Audit Report

Office of Justice Programs,
Office of Juvenile Justice and Delinquency Prevention, 
National Outreach and Expansion Year 2000 
Cooperative Agreement Awarded to 
the Youth Crime Watch of America, 
Cooperative Agreement Number 
2000-JP-FX-K001, Miami, Florida

Report No. GR-40-05-005


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National Outreach and Expansion Year 2000 cooperative agreement, including supplements, awarded by the
U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Youth Crime Watch of America (YCWA) headquartered in Miami, Florida.   The purpose of the National Outreach and Expansion Year 2000 cooperative agreement is to expand the YCWA model of youth crime watch nationwide in order to:  1) assist schools and community centers in developing local youth crime watch programs, 2) provide training and technical assistance, 3) develop youth crime watch leaders, and 4) perform evaluations of youth crime watch programs.  As of February 10, 2004, the YCWA had been reimbursed $3,322,800 of the $3,394,550 cooperative agreement award.  We tested the YCWAs accounting records to determine if reimbursement claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement.
  
Our audit revealed deficiencies in the areas of reporting, drawdowns, program income, cooperative agreement expenditures, accountable property, and internal controls.  As a result of the deficiencies identified below, we question $561,789 in cooperative agreement funds received.1   Specifically, we found that the YCWA:

Inaccurately reported total outlays and indirect expenditures on the financial status reports.
	Did not properly account for and report $72,476 in program income received from the cooperative agreement.
	Claimed and was reimbursed expenses totaling $489,313 that were not supported by adequate documentation, not allowed in the budgets approved by OJP, exceeded the costs in the budgets approved by OJP, or used to acquire property that could not be physically verified.
	Did not establish and maintain adequate internal controls over the approval, payment, and recording of expenses.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.